         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Fire Protection Deficiencies at Los
Alamos National Laboratory




DOE/IG-0816                            June 2009
                             Department of Energy
                                Washington, DC 20585
                                    June 23, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Fire Protection
                         Deficiencies at Los Alamos National Laboratory"

BACKGROUND

The Department of Energy's Los Alamos National Laboratory (Los Alamos) maintains some of
the Nation's most important national security assets, including nuclear materials. Many of Los
Alamos' facilities are located in close proximity to one another, are occupied by large numbers
of contract and Federal employees, and support activities ranging from nuclear weapons design
to science-related activities. Safeguarding against fires, regardless of origin, is essential to
protecting employees, surrounding communities, and national security assets.

On June 1, 2006, Los Alamos National Security, LLC (LANS), became the managing and
operating contractor for Los Alamos, under contract with the Department's National Nuclear
Security Administration (NNSA). In preparation for assuming its management responsibilities
at Los Alamos, LANS conducted walk-downs of the Laboratory's facilities to identify pre-
existing deficiencies that could give rise to liability, obligation, loss or damage. The walk-
downs, which identified 812 pre-existing fire protection deficiencies, were conducted by
subject matter professionals, including fire protection experts.

While the Los Alamos Site Office has overall responsibility for the effectiveness of the fire
protection program, LANS, as the Laboratory's operating contractor, has a major, day-to-day
role in minimizing fire-related risks. The issue of fire protection at Los Alamos is more than
theoretical. In May 2000, the "Cerro Grande" fire burned about 43,000 acres, including 7,700
acres of Laboratory property. Due to the risk posed by fire to the Laboratory's facilities,
workforce, and surrounding communities, we initiated this audit to determine whether pre-
existing fire protection deficiencies had been addressed.

RESULTS OF AUDIT

Our review disclosed that LANS had not resolved many of the fire protection deficiencies that
had been identified in early 2006:

   •   Of the 296 pre-existing deficiencies we selected for audit, 174 (59 percent) had not
       been corrected; and,

   •   A substantial portion of the uncorrected deficiencies, 86 (49 percent) were considered
       by the walk-down teams to be significant enough to warrant compensatory actions until
                                                 2

       the deficiency was corrected or was tracked to closure through implementation of
       corrective actions.

Further, we found that 32 of the significant deficiencies had been closed by the previous Los
Alamos contractor, prior to LANS assuming responsibility for operation of the Laboratory,
even though the deficiencies had not been corrected.

A fire protection expert provided technical support during the audit.

As an example of uncorrected problems, LANS had not resolved, by performing periodic tests,
a deficiency identified in 2006 regarding a kitchen hood fire suppression system in a facility
located within the Los Alamos Neutron Science Center. Such systems are required to be tested
twice a year by the National Fire Protection Association standard, a standard that had been
adopted by Department of Energy under DOE Order 420.1B. Yet, in 2006, the LANS walk-
down team recognized that this system had not been inspected since May 2004 and noted that
deficient suppression systems could result in significantly high levels of property damage and
loss. After we brought this issue to management's attention on February 6, 2009, LANS
officials stated that the Laboratory would correct this deficiency.

As with the problems involving the fire suppression system, we observed that LANS had not
always corrected life safety deficiencies involving building exits at one of its primary facilities.
This included providing a secondary emergency exit for a building with occupants on multiple
floor levels. LANS had removed personnel from the third floor and improved the sprinkler
system of the facility, but it had still not provided a secondary exit for personnel on the second
floor by the time we completed our review. NNSA has since stated that this fire protection
issue will be completely addressed by relocating personnel from the second floor.

Perhaps most serious, our testing revealed that a number of deficiencies were formally closed
even though actual corrective action had not been completed. Notably, we observed that action
had not been taken to resolve a recommendation to replace a fire alarm panel found to be
unreliable. After the walk-down was conducted but prior to contract transition, the former
contractor closed the recommendation in its action tracking database even though the panel had
not been replaced. The walk-down team had categorized the fire alarm system as requiring
replacement since it had been modified many times, was old and obsolete, and had very limited
available spare parts. In fact, the walk-down team concluded that the panel "…must be
considered to be unreliable and should have a very high priority for replacement."

We concluded that the uncorrected fire protection deficiencies identified by the LANS walk-
down team had not been properly resolved because the Department's Site Office had not
effectively administered the Los Alamos contract. Specifically, the Site Office had not ensured
that LANS and the former Los Alamos contractor made the necessary improvements to correct
identified fire protection deficiencies nor had it validated the efficacy of corrective actions.
Further, the Site Office had not established expectations for LANS to correct deficiencies,
including properly structured contract incentives to achieve that goal.

Absent strong fire protection leadership by Federal officials, LANS had not fully evaluated the
most significant deficiencies identified by the walk-down team to determine whether they had
                                                3

been corrected or if additional actions were needed. In particular, LANS had not tracked nor
verified that corrective actions had actually been taken to remedy deficiencies.

We noted that the Defense Nuclear Facilities Safety Board, in a December 2008 report to the
NNSA Administrator, expressed concerns regarding the progress made in resolving protection
issues at Los Alamos. Specifically, the Board reported that inadequate staffing of Los Alamos'
fire protection function had impeded progress in correcting previously identified fire protection
issues, including timely completion of required inspections and maintenance of fire protection
equipment.

The failure to correct fire protection deficiencies increased the risk of injury or loss of life.
Further, there are increased risks associated with fire-related events, such as the release of
hazardous or radiological material. If such an event were to occur, not only would the safety
and health of employees and the public be impacted but the environment could be damaged as
well. Accordingly, we made a number of recommendations to help improve fire protection at
Los Alamos.

As part of our continuing focus on safety, the Office of the Inspector General is also currently
conducting an inspection to determine whether fire suppression and related services for Los
Alamos National Laboratory are assured through agreements with Los Alamos County.

MANAGEMENT REACTION

Management disagreed with conclusions, specifically, regarding the potential impact of the fire
protection deficiencies. However, Management expressed its agreement with the proposed
corrective actions and recommendations, and, during the course of audit field work, informed
the audit team of corrective actions that it planned to take. As noted in the report, despite its
stated disagreements with the audit conclusions, after we pointed out unresolved deficiencies
both contractor and NNSA officials initiated action to reassess and/or correct individual fire
protection problems. NNSA's completed and planned actions, when combined with our
recommendations to adequately incentivize contractor performance, should, if completely
implemented, help reduce the health, safety, and property risks associated with fire protection
weaknesses at the Los Alamos National Laboratory.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Manager, Los Alamos Site Office
AUDIT REPORT ON FIRE PROTECTION DEFICIENCIES AT LOS
ALAMOS NATIONAL LABORATORY                          ___

TABLE OF
CONTENTS


Los Alamos Fire Protection

Details of Finding .............................................................................................................1

Recommendations and Comments....................................................................................6


Appendices

1. Objective, Scope, and Methodology...........................................................................9

2. Prior Reports .............................................................................................................11

3. Management Comments ...........................................................................................12
LOS ALAMOS FIRE PROTECTION

Fire Protection         Los Alamos National Laboratory (Los Alamos) had not
Deficiencies            corrected a majority of the pre-existing fire protection
                        deficiencies identified by Los Alamos National Security,
                        LLC (LANS), in 2006. We reviewed a sample of 296 of
                        812 fire protection deficiencies identified by LANS prior to
                        assuming management of the Laboratory from the
                        University of California, the previous management and
                        operating contractor. Although the LANS walk-down
                        teams had not provided a detailed risk assessment of
                        identified fire protection deficiencies, they did identify
                        deficiencies that they considered to be significant. We
                        evaluated the status of those deficiencies, with the support
                        of a Los Alamos fire protection expert, and determined that
                        174 deficiencies (59 percent) had not been corrected,
                        despite having been identified between March and April
                        2006. These deficiencies were located in a variety of areas,
                        including nuclear and chemical facilities, office buildings,
                        and other facilities containing hazardous materials.
                        Notably, we determined that:

                           •   Eighty-six of the 174 uncorrected deficiencies (49
                               percent) were considered significant enough by the
                               walk-down team to require either compensatory
                               action or tracking until the deficiency was corrected
                               because they represented areas of non-compliance
                               with fire protection standards and requirements;
                               and,

                           •   Even though they had not actually been corrected,
                               32 of the significant deficiencies had been closed by
                               the previous Los Alamos contractor prior to LANS
                               assuming responsibility for the Laboratory.

                        Our examination disclosed that even though they had been
                        identified more than two years prior to the commencement
                        of our review, LANS had not taken action to address many
                        significant deficiencies. For example, LANS had not:

                           •   Tested a kitchen hood fire suppression system
                               (located within the Los Alamos Neutron Science
                               Center) in over four years. Such systems are
                               required to be tested twice a year by the National
                               Fire Protection Association (NFPA) standard, a
                               standard that had been adopted by Department of
                               Energy Order 420.1B. In 2006, the LANS walk-
                               down team recognized that this system had not been
                               inspected since May 2004 and noted that deficient

____________________________________________________________________________
Page 1                                                      Details of Finding
                               systems could result in significantly high levels of
                               property damage and loss. After we brought this issue to
                               management's attention on February 6, 2009, LANS
                               officials stated that the Laboratory would correct this
                               deficiency.

                           •   Provided a secondary exit for the Administration
                               Building in Technical Area-16. This three story office
                               building had only a single exit stairwell from the second
                               and third floors. The 2006 LANS walk-down team
                               identified the absence of an additional exit stairwell as a
                               significant life safety deficiency. The team also noted
                               that the absence of a second exit violated a NFPA
                               requirement that a facility's design must allow occupants
                               to promptly escape. In 2007, LANS removed all
                               personnel from the third floor and made modifications to
                               the sprinkler system. The National Nuclear Security
                               Administration (NNSA) management indicated that this
                               fire protection issue will be completely addressed by
                               relocating personnel from the second floor, an action that
                               it planned to complete in the near term.

                           Fire Protection Deficiencies Reported as Closed Were Not
                                                   Corrected

                        At the time of our observation, a LANS subject matter expert
                        verified that 32 of the significant deficiencies classified as "Issue
                        Closed" in a stand-alone database, developed to track pre-
                        existing conditions, remained uncorrected. Our testing revealed,
                        for example, that the contractor responsible for managing the
                        Laboratory prior to LANS had closed the deficiencies even
                        though corrective actions had not been completed or were
                        ineffective. In particular, the former Los Alamos contractor had
                        not:

                           •   Replaced a fire alarm panel that the walk-down team
                               found to be unreliable. The alarm panel was located in a
                               facility that housed and processed plutonium. Plutonium
                               is a nuclear material that will burn and which, if not
                               handled properly, has the potential to reach nuclear
                               criticality and/or contaminate the site and workforce.
                               The walk-down team had categorized the fire alarm
                               system as requiring replacement since it had been
                               modified many times, was old and obsolete, and had
                               very limited available spare parts. In fact, the walk-
                               down team concluded that the panel "…must be
                               considered to be unreliable and should have a very high
____________________________________________________________________________
Page 2                                                      Details of Finding
                               priority for replacement." While LANS located spare
                               parts for the system after it assumed responsibility for
                               management, it had not replaced the system as
                               recommended by the walk-down team. NNSA
                               management acknowledged that the alarm panel is
                               antiquated but considered it functional and reliable,
                               contrary to the walk-down report finding. NNSA
                               management also stated that Los Alamos had secured
                               and qualified an inventory of spare parts and will repair
                               or replace the system if reliability deteriorates. Finally,
                               NNSA plans to replace the part in the future. Actions
                               that NNSA undertook after we notified it of problems
                               with the fire panel are promising, and if fully
                               implemented, should help resolve a significant weakness
                               in the plutonium processing facility which this panel
                               protects/monitors.

                           •   Corrected impediments to the effective operation of
                               sprinklers in a facility within the Los Alamos Neutron
                               Science Center. The LANS walk-down team observed
                               that curtains and valances obstructed the flow of
                               sprinklers and also noted that missing ceiling tiles could
                               delay the operation of the sprinklers. The team
                               recommended the removal of the curtains and valances
                               and replacement of tiles. As a result of our audit, LANS
                               created a work order in February 2009 to correct this
                               deficiency. Similar to other actions taken after our field
                               audit work was finished, officials told us that the work to
                               address this problem had been completed.

                           •   Provided fire protection to an enclosed structure within a
                               technical shop that the walk-down team determined was
                               not protected by the existing sprinkler system. LANS
                               officials told us that as a result of our audit work, it plans
                               to take corrective actions in this area.

Contract                The Los Alamos Site Office (LASO) had not
Administration and      effectively administered the Los Alamos facility operation
Project Management      contract to ensure that the fire protection deficiencies were
                        corrected. Further, LANS did not follow its own requirements
                        for project management related to correcting fire protection
                        deficiencies.

                                            Contract Administration

                        Although safety is one of the Department of Energy's priorities,
                        LASO had not ensured that fire protection deficiencies were
____________________________________________________________________________
Page 3                                                      Details of Finding
                        corrected. LASO had not required either LANS or the previous
                        Los Alamos managing contractor to validate the status of the fire
                        protection deficiencies and it had not verified the status of those
                        deficiencies. Further, LASO had not effectively used
                        Performance Based Incentives (PBIs) to establish expectations
                        for LANS to correct fire protection deficiencies identified in
                        2006. Specifically, LASO had not provided incentives related to
                        the 2006 deficiencies until 2008. At that time, it established an
                        expectation that LANS develop a milestone schedule for closure
                        or other disposition of all fire protection deficiencies expected to
                        cost $50,000 or more. According to NNSA, LANS has
                        developed such a schedule but had limited success in resolving
                        the identified deficiencies. NNSA recognized that it had limited
                        success during 2008 in correcting fire protection deficiencies
                        and carried forward the PBI for correcting the deficiencies into
                        Fiscal Year (FY) 2009.

                                          Deficiency Resolution Efforts

                        LANS had not fully evaluated the most significant fire
                        protection deficiencies, those requiring compensatory action or
                        tracking until closure, to determine whether they had been
                        corrected or if additional actions were needed. In particular,
                        LANS had not verified that corrective actions had actually been
                        taken to remedy deficiencies. According to Laboratory officials,
                        the former Laboratory contractor reportedly addressed the
                        deficiencies identified by the walk-down team. However,
                        LANS had not verified that the deficiencies identified as
                        resolved by the former contractor had actually been corrected.

                        Further, LANS had not tracked 68 of the 86 significant
                        deficiencies in either its maintenance management system
                        (PassPort) or the Los Alamos Issues Tracking System (LIMTS).
                        According to officials, when LANS assumed responsibility for
                        the Laboratory, the deficiencies in the former contractor's
                        action/tracking database were transferred into either PassPort
                        and/or LIMTS. We noted that 18 of the significant deficiencies
                        were tracked in either PassPort and/or LIMTS at the start of our
                        audit. However, LANS did not capture all outstanding
                        deficiencies in PassPort or LIMTS when it transferred the
                        deficiencies. For example, we determined that LANS had not
                        transferred 42 significant deficiencies that were identified in the
                        former contractor's tracking database as requiring corrective
                        actions. As a result of our audit, LANS entered and began to
                        track an additional 20 deficiencies in PassPort and/or LIMTS.
                        Finally, LANS officials told us that they had resolved six
                        deficiencies that had not been tracked in either system.
____________________________________________________________________________
Page 4                                                      Details of Finding
                        LANS also could not demonstrate that it had always allocated
                        resources or developed projected completion dates for fire
                        protection deficiencies. LANS officials told us that based on
                        issues identified during our review they had initiated actions to
                        correct a number of deficiencies. LANS officials, however,
                        could not always identify the funding allocated to correcting the
                        deficiencies and the schedule established for completing the
                        corrective actions.

                        Consistent with our findings, we also noted that the Defense
                        Nuclear Facilities Safety Board reported to the Administrator,
                        NNSA, in December 2008, that inadequate staffing of Los
                        Alamos' fire protection function had impeded progress in
                        correcting previously identified fire protection issues. Problem
                        areas included timely completion of required inspections and
                        maintenance of fire protection equipment.

                        To its credit, LANS plans to implement a number of important
                        actions based on the results of our audit. In particular, LANS
                        plans to:

                            •   Direct Facility Operation Directors to document the
                                disposition of all significant walk-down issues (after
                                rescreening) and verify that each has been properly
                                closed or is being tracked in LIMTS;

                            •   Perform a management self-assessment, with the results
                                tracked in LIMTS, on the efficacy of action taken to
                                disposition fire protection deficiencies;

                            •   Conduct a corporate oversight assessment of LANS
                                management of its fire protection deficiencies;

                            •   Ensure that PBIs on fire protection will be met in
                                FY 2009; and,

                            •   Evaluate existing fire protection program performance
                                metrics to determine if they are sufficient. If they are
                                not, revise or augment them as necessary to provide
                                sufficient visibility to support priority decisions.

Potential Impacts       The failure to correct a majority of fire protection deficiencies
                        increased the risks of injury or loss of life had a fire occurred at
                        Los Alamos. If such a fire did occur, and was not quickly
                        suppressed, there could be a risk that hazardous or radiological


____________________________________________________________________________
Page 5                                                      Details of Finding
                           material could be released, continuity of operations disrupted,
                           and a loss of structures and components. Ensuring that known
                           fire protection deficiencies are promptly and properly resolved
                           would help ensure that employee safety and health is protected,
                           the impact on the public is minimized, and that damage to the
                           environment is prevented or minimized.

RECOMMENDATIONS            To help ensure that fire protection deficiencies are
                           corrected, we recommend that the Manager, Los Alamos Site
                           Office:

                              1. Structure PBI's that establish the clear expectation that
                                 LANS correct existing fire protection deficiencies; and,

                              2. Verify the efficacy of LANS' corrective actions,
                                 including those previously reported as closed.

                           Additionally, we recommend that the Manager, Los Alamos Site
                           Office, ensure that LANS:

                              3. Establish funding plans and schedules for correcting all
                                 significant fire protection deficiencies;

                              4. Track the status of the individual highly significant fire
                                 protection deficiencies; and,

                              5. Validate the efficacy of corrective actions before closing
                                 the deficiency.

MANAGEMENT                 Management agreed with the recommendations and stated that
COMMENTS                   actions that have been taken or that are being implemented
                           are providing confidence in the programmatic and management
                           structure and are in the best interests of the NNSA. Management
                           also noted that the deficiencies identified in this report were not
                           nuclear safety issues which are its primary focus.

                           Further, management stated that LANS had corrected a notable
                           number of the high-significance and moderate-significance fire
                           protection deficiencies that were identified during the walk-
                           downs that were conducted from March through April 2006.

                           Management did not agree, however, with the stated conclusions.
                           Management indicated that the issues raised in the report arose
                           from weaknesses in institutional issues and corrective action
                           management that existed in June 2006. Management stated that,
                           at that time, Los Alamos lacked a program to manage, prioritize,


________________________________________________________________________________
Page 6                                           Recommendations and Comments
                           and address these types of deficiencies in a manner that
                           considered the multiple relevant factors, including but not
                           limited to the potential mission impact, the available resources,
                           and the risk to the public.

                           Finally, management stated that it will initiate actions to verify
                           the efficacy of LANS' corrective actions, ensure that LANS
                           tracks the status of individual highly significant deficiencies,
                           and ensure that LANS validates the efficacy of corrective
                           actions before closing the deficiencies. NNSA also asserted that
                           current PBIs establish a clear expectation that LANS correct
                           existing fire protection deficiencies and ensure that LANS
                           establishes funding plans and schedules for correcting all
                           significant fire protection deficiencies.

MANAGEMENT                 Management's comments and corrective actions taken or initiated
REACTION                   are generally responsive to our recommendations. While we
                           acknowledge that the fire protection deficiencies were not
                           nuclear safety issues, the failure to correct fire protection
                           deficiencies increased the risks of injury or loss of life if a fire
                           occurred at Los Alamos. If not extinguished quickly, a fire at or
                           near facilities we tested could also potentially result in the
                           release of radiological material. These issues were of such
                           significance that, at the time of transition of Los Alamos
                           management from the previous contractor to LANS, the LANS
                           Transition Manager committed to develop Corrective Action
                           Plans that addressed causal factors for the deficiencies, prioritize
                           the deficiencies based on their significance and impact, identify
                           resources needed to correct the deficiencies, and establish a
                           schedule for completing corrective actions.

                           Management's acknowledgement that Los Alamos lacked a
                           program to manage deficiencies is not inconsistent with our
                           report. Management's observation, in fact, provides additional
                           insight regarding reasons for the failure to monitor and promptly
                           resolve fire protection deficiencies, many of which lingered for
                           nearly three years after discovery.

                           We are encouraged that NNSA agreed to initiate action in
                           response to our recommendations. We remained concerned,
                           however, that NNSA plans to take no additional action regarding
                           contractor performance incentives. As previously noted, current
                           PBIs place an emphasis on deficiencies that are expected to cost
                           $50,000 or more rather than addressing deficiencies based on
                           significance. We noted that LANS did not include all
                           significant fire protection deficiencies on the list it prepared in
________________________________________________________________________________
Page 7                                                                Comments
                           response to the PBIs, such as the uninspected kitchen hood fire
                           suppression system. As noted in the LANS walk-down report,
                           the deficiency could result in high levels of property damage
                           should the system fail.




________________________________________________________________________________
Page 8                                                                Comments
Appendix 1

OBJECTIVE               The objective of our audit was to determine whether
                        pre-existing fire protection deficiencies had been corrected.

SCOPE                   This audit was performed between December 2007
                        and April 2009 at Los Alamos National Laboratory and the
                        Los Alamos Site Office, located in Los Alamos, New
                        Mexico.

METHODOLOGY             To accomplish the audit objective, we:

                           •   Reviewed applicable Laws, Departmental orders,
                               other Departmental guidance, and contracts;

                           •   Analyzed prior Office of Inspector General and
                               Defense Nuclear Facilities Safety Board reports;

                           •   Reviewed and analyzed internal Los Alamos
                               guidance;

                           •   Reviewed compliance with the Government
                               Performance and Results Act of 1993;

                           •   Selected a sample of 296 of the 812 fire protection
                               deficiencies from a stand-alone database and with
                               the aid of a fire protection subject matter expert
                               performed visual observations. Los Alamos
                               selected the subject matter expert, a member of the
                               Laboratory's Fire Protection Group, to assist us in
                               reviewing the fire protection deficiencies; and,

                           •   Interviewed key contractor personnel.

                        We conducted this performance audit in accordance with
                        generally accepted government auditing standards. Those
                        standards require that we plan and perform the audit to
                        obtain sufficient, appropriate evidence to provide a
                        reasonable basis for our findings and conclusions based on
                        our audit objective. We believe that the evidence obtained
                        provides a reasonable basis for findings and conclusions
                        based on our audit objective. The audit included tests of
                        controls and compliance with laws and regulations
                        necessary to satisfy the audit objective. Because our
                        review was limited, it would not necessarily have disclosed
                        all internal control deficiencies that may have existed at the
                        time of our audit. We assessed performance measures

____________________________________________________________________________
Page 9                                      Objective, Scope, and Methodology
Appendix 1 (Continue)

                        established under the Government Performance and Results
                        Act of 1993 and found that Los Alamos had not instituted
                        specific performance measures related to correcting pre-
                        existing fire protection deficiencies until 2008. We
                        determined that computer-processed data from the stand-
                        alone database was integral to meeting the objectives of
                        this audit. We verified the accuracy of data contained in
                        the database as it related to our audit objective by visual
                        inspections of corrected and uncorrected deficiencies.

                        Management waived an exit conference.




____________________________________________________________________________
Page 10                                      Objective, Scope, and Methodology
Appendix 2

                                   PRIOR REPORTS

OFFICE OF INSPECTOR GENERAL REPORTS

•   The Department of Energy's Wildland Fire Planning and Preparation Efforts
    (DOE/IG-0760, March 2007). This report found that wildland fire mitigation
    activities had either not been performed or were not completely effective. In
    addition, it was determined that contractor officials did not always adhere to
    established wildland fire planning and mitigation guidance. Specifically, contractors
    had not used risk-based principles to prioritize mitigation efforts and had either
    omitted or not adequately considered other items specified in Federal policy and
    Departmental guidance when developing fire protection plans. Further, Federal
    officials had not always actively monitored contractor wildland fire protection
    programs, coordinated protective efforts, or validated the effectiveness of contractor
    fire mitigation activities.

OTHER REPORTS

•   The Defense Nuclear Facilities Safety Board's Staff Issue Report, Fire and
    Emergency Response Capabilities for Defense Nuclear Facilities at Los Alamos
    National Laboratory, December 8, 2008. This report found weaknesses in Los
    Alamos' capability to respond to a fire or other emergency in the unique hazard
    environments associated with nuclear facilities. The report concluded that
    weaknesses resulted from the failure to implement long-standing recommendations
    made in 1995 and 2004 needs assessments. The report also found that staffing
    shortages may be hindering needed improvements in Los Alamos' fire protection
    program.

•   The Defense Nuclear Facilities Safety Board's Staff Issue Report, Fire Protection at
    Los Alamos National Laboratory, April 29, 2005. This report found a number of
    issues regarding weaknesses in the fire protection program at Los Alamos National
    Laboratory. Paramount among these issues was the lack of a formal plan to address
    the baseline needs assessment for fire and emergency services and the lack of a long-
    term contract for these services with Los Alamos County. The Board acknowledged
    the National Nuclear Security Administration's completion of a cooperative
    agreement for fire and emergency services with Los Alamos County. However, the
    Board remained concerned about the outlook for aligning those services with the
    unique capabilities required to meet the fire protection needs of the Laboratory. The
    report further indicates that there are weaknesses in the current capability to respond
    to a fire or other emergency event in the unique hazard environments associated with
    defense nuclear facilities at the Laboratory. This situation is a direct result of the
    failure to implement long-standing recommendations made in the 1995 and 2004
    Baseline Needs Assessments, and is further evidenced by observations made and
    issues identified by Los Alamos National Security, LLC during recent emergency
    exercises. The report also found that staffing shortages may be hindering needed
    improvements to the Laboratory's fire protection program.

____________________________________________________________________________
Page 11                                                         Prior Reports
Appendix 3
                              May 21, 2009



MEMORANDUM FOR                George W. Collard
                              Assistant Inspector General
                                for Performance Audit

FROM:                         Michael C. Kane / S /
                              Associate Administrator
                               for Management and Administration

SUBJECT:                      Comments to Draft Fire Deficiencies Report; Proj. No.
                              A08LA010; IDRMS No. 2007-04684


The National Nuclear Security Administration (NNSA) appreciates the opportunity to
review the Inspector General’s draft report, Fire Protection Deficiencies at Los Alamos
National Laboratory. Due to the risk posed by fire to the Los Alamos National
Laboratory’s (LANL) facilities, workforce, and surrounding communities, we understand
that this audit was initiated to determine whether pre-existing fire protection deficiencies
had been corrected.

NNSA agrees with the recommendations that are being presented because quality
assurance can always be strengthened. The actions that NNSA has taken or are being
implemented are providing a level of confidence to NNSA’s programmatic and
management structure and are in the best interests of the NNSA.

NNSA does not agree, however, with the stated conclusions. The audit focused on
pre-existing conditions identified by the Los Alamos National Security, LLC (LANS)
field walk-downs conducted prior to contract transition in June 2006. The LANS due-
diligence walk-down report, issued in May 2006, identified about 3400 issues overall, of
which 812 were related to fire protection. Particularly noteworthy, the fire protection
issues flagged were not nuclear safety issues, since the walk-downs did not focus on
nuclear-safety-credited systems; such systems are the primary focus of NNSA fire
protection oversight. Furthermore, consistent with its purpose, the due-diligence walk-
down report provided a triage of the issues but not a detailed risk analysis and risk
prioritization for the issues.

The issues raised by the auditors arise from weaknesses in institutional issue and corrective
action management that existed in June 2006. At that time, LANL lacked a program to
manage, prioritize, and address these types of deficiencies in a manner that considered the
multiple relevant factors, including but not limited to the potential mission impact, the
available resources, and the risk to the public. While the due-diligence walk-down report
provided abundant symptoms of this problem, addressing only those

________________________________________________________________________
Page 12                                           Management Comments
                                                                                          2

Appendix 3 (Continued)
symptoms would not address the problem and would not prevent recurrence. Since June
2006, NNSA and LANS major focus has been to develop institutional issue management
within the Contractor Assurance System, while also demonstrably improving the safety
of the public, the workers, and the environment in all areas, including fire protection.

NNSA will address the stated recommendations in the following manner:

Recommendations 2, 4 and 5: Verify the efficacy of LANS’ corrective actions
including those previously reported as closed. Ensure that LANS tracks the status of the
individual highly significant fire protection deficiencies. Ensure that LANS validates the
efficacy of corrective actions before closing the deficiency.

-- NNSA Analysis: As of April 30, 2009, LANS has confirmed the valid and complete
   closure for 27 of the 30 high-significance fire protection deficiencies identified during
   the due-diligence walk-downs and has confirmed that the three such deficiencies that
   remain open are mitigated with compensatory measures. Similarly, LANL has
   confirmed that 138 of the 316 moderate-significance compliance issues have valid
   and complete closure, with the balance entered into and being managed within the
   LANL issue management system. LANS has separately provided comments on
   specific issues identified in the report.

   Several of the IG’s examples in this area warrant further discussion:

   •   The Plutonium Facility fire detection and alarm panel is antiquated but considered
       currently functional and reliable, contrary to the walk-down report finding.
       LANL has secured and qualified an inventory of spare parts. If reliability
       deteriorates, LANL will repair or replace the system as a priority. Planned
       replacement is part of the TA-55 Reinvestment Project.

   •   The fire protection issue associated with means of egress from the cited TA-16
       administrative building was partially addressed in 2007 by relocating personnel
       from the third floor and will be completely addressed by relocating personnel
       from the second floor in May 2009.

   To prevent recurrence, in 2007, LANS made improvements to the issue management,
   corrective action, and impairment control programs, and the comprehensive fire
   protection program (as required under the worker safety and health program under 10
   CFR 851).

   NNSA Action: As part of its programmatic fire protection oversight in FY 2009, the
   Los Alamos Site Office (LASO) will verify the efficacy of the closure of the 30 high-
   significance fire protection deficiencies identified in the due-diligence walk-down
   report, as well as a sampling of the moderate-significance compliance deficiencies.
   Moving forward, the LASO and LANS will develop metrics to actively monitor the
   effectiveness of the LANS corrective action management system to ensure that issues
________________________________________________________________________
Page 13                                                          Management Comments
                                                                                              3
Appendix 3 (Continued)
      are tracked and closed on a timely basis and that significant corrective actions are
      validated effective. Fire protection issues would be included in this overall program
      metric.

Recommendations 1 and 3: Structure Performance Based Incentives (PBIs) that
establish clear expectation that LANS correct existing fire protection deficiencies.
Ensure that LANS establishes funding plans and schedules for correcting all significant
fire protection deficiencies.

-- NNSA Analysis: NNSA had such PBIs in 2008 but had limited success, based on
   the awarded fee (e.g., FY-08 PBI 11.4.1). In FY 2009, NNSA has PBIs that
   emphasize resolving legacy fire protection issues, including submitting a prioritized
   list, a plan and schedule for execution, and evidence of completion of scheduled
   activities; NNSA also has subjective PBIs that are based on performance on
   commitments and demonstrated continuous improvement in the fire protection
   program (FY 2009 PBI 7.7.1, PBI 16.5, PBI 16.7). Overall, LASO believes that,
   while individual omissions may exist in the program, the LANS fire protection
   program is demonstrating continuous improvement. Attachment A further discusses
   NNSA perspective.

      NNSA Action: In accordance with 10 CFR 851 and 10 CFR 830, which are
      enforceable under the Price Anderson Amendments Act, NNSA expects LANL to
      correct fire protection deficiencies that affect worker safety and nuclear safety.
      NNSA will continue to assess the contractor’s performance in implementing the fire
      protection program, which includes planning, funding, and correcting fire protection
      deficiencies. Current PBIs meet the intent; therefore, NNSA considers this action
      complete.

In addition to the above comments, NNSA is also attaching technical comments
(Attachment B) for the IG’s consideration.

If you have any questions concerning this response, please contact Cathy Tullis, Acting
Director, Policy and Internal Controls Management.

Attachments

cc:      Revitization Manager, Los Alamos Site Office
         David Boyd, Senior Procurement Executive
         Karen Boardman; Director, Service Center




________________________________________________________________________
Page 14                                           Management Comments
                                                             IG Report No. DOE/IG-0816

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date ________________

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
